             September 27, 2004

             MEMORANDUM

             FOR:            Mission Director, USAID/Macedonia, Dick Goldman

             FROM:           Regional Inspector General/Budapest, Nancy J. Lawton /s/

             SUBJECT:        Report on the Risk Assessment of USAID/Macedonia
                             (Report No. B-165-04-004-S)

             This memorandum transmits our final report on the subject risk assessment. In
             finalizing the report, we considered your comments on our draft report and have
             included your response as Appendix II.

             This is not an audit report and does not contain any recommendations for your action.

             I appreciate the cooperation and courtesy extended to my staff during the risk
             assessment.



Background   Maintaining peace and stability in Macedonia remain the top foreign policy interests of
             the United States for this small but strategically-placed Balkan country. Development
             work in Macedonia takes place within a very challenging political environment. Public
             confidence in democracy is relatively low, as citizens do not always feel that political
             parties represent their interests or that the parties are, in all cases, responsive to popular
             needs. In addition, Macedonia’s civil society has not yet developed to where it can exert
             significant influence over the political players’ actions or function proactively on the
             citizens’ behalf.
             In addition to the political challenges, USAID/Macedonia is also working to address
             the country’s serious economic problems. The unemployment rate, estimated to be 32
             percent in 2002, rose to almost 37 percent in 2003. Half of unemployed persons are
             under the age of 30 and salaries in real terms for those who are employed remain well
             below their early 1990s levels. The Macedonian economy does not have the flow of
             private capital funds from domestic and foreign direct investment needed to ensure
             adequate rates of growth to absorb unemployment. Political uncertainty and
             investors’ lack of confidence have inhibited foreign investment.
USAID/Macedonia includes three Program-related offices, a Program Office, and an
Executive Office:


   •   The Economic Growth (EG) office seeks to accelerate economic growth in
       Macedonia by bringing industry, government and labor together to find ways
       to make Macedonian industry more competitive. USAID's projects strengthen
       financial institutions in order to improve the access to capital for firms of all
       sizes. USAID's projects also support modernization of Macedonia's tax policy
       and business law, implementation of World Trade Organization membership
       and economic development at the local level.

   •   The Democracy and Local Governance (DLG) office focuses on, among other
       things, increasing participation in political and social decision making and
       enhancing adherence to the rule of law.

   •   The Social Transition Office (STO) facilitates the transition to a market-based
       economy in Macedonia. USAID/Macedonia and its partners are working to
       improve education and strengthen human capacity through development
       projects.

   •   The Program Office is responsible for program development, program budget
       management, and public awareness of Mission activities. The office is also
       responsible for managing the participant training program and facilitating the
       Mission’s cross-cutting initiatives.

   •   The Executive Office (EXO) manages administrative functions such as
       personnel management, general services, motor pool, and property
       management.

The Mission plans to streamline its activities by completing older programs and only
starting a few new, top priority activities.

The following table shows expenditures, in millions, for Mission programs during
fiscal years 2001-2003, along with the current strategic objectives (SOs) and the
proposed budget for fiscal year (FY) 2004.




                                                                                      2
             USAID/Macedonia Programs            FY 2001     FY 2002     FY 2003       FY 2004
                                                                                       (budgeted)
             Economic Growth Office:
             Strategic Objectives - 1.3:
             Accelerated Development and           $11.6       $17.7        $16.2         $12.2
             Growth of the Private Sector and
             portions of SO 3.4: Mitigation of
             Adverse Social Impacts of the
             Transition to a Market-Based
             Democracy
             Democracy and Local
             Governance:                             9.4        12.8         15.8          11.8
             Strategic Objective - 2.0: More
             Legitimate Democratic
             Institutions
             Social Transition Office:
             Strategic Objective - portions of
             SO 3.4: Mitigation of Adverse           -           3.2          3.1           6.4
             Social Impacts of the Transition
             to Market-Based Democracy
             Program Office:
             Strategic Objective - 4.2: Cross-       4.0         4.3          4.4           4.3
             cutting Initiatives


             TOTALS                                $25.0        $38.0       $39.5         $34.7

             The Government Accountability Office (GAO), formerly the General Accounting
             Office, has stated in the Standards for Internal Control in the Federal Government
             that internal controls are an integral component of an organization’s management.
             They should provide reasonable assurance that the following objectives are being met:
             effectiveness and efficiency of operations, reliability of financial reporting, and
             compliance with applicable laws and regulations. GAO has also stated that internal
             controls should provide for an assessment of the risks the agency faces from both
             external and internal sources. This survey focused on the risk assessment component
             of internal controls.

             The purpose of this assessment was to identify the more significant areas of
             vulnerability within USAID/Macedonia’s administrative and program operations and
             to assist RIG/Budapest in planning future program audits.

             Appendix I contains a discussion of the scope and methodology for this assessment.


Discussion   In judging the risk exposure for the offices in USAID/Macedonia, we considered,
             where appropriate:

                 •   The amount of funding the individual programs received relative to the overall
                     Mission budget,



                                                                                                  3
    •   The level of involvement and support provided by the Government of
        Macedonia,

    •   The experience of key staff members,

    •   The adequacy of written procedures and the level of compliance with
        procedures throughout the Mission,

    •   The adequacy and use of performance standards and internal audits,

    •   Evidence of consistent implementation of activities that clearly support
        program objectives,

    •   The adequacy of controls over its data systems, equipment and vehicles, and

    •   Correction of Mission-identified weaknesses from the Federal Managers’
        Financial Integrity Act (FMFIA) report for FY 2003.



 Function Description                                      Risk Exposure
 Economic Growth (EG) Office: This office is
 responsible for SO 1.3: Accelerated Development and             Moderate
 Growth of the Private Sector and portions of SO 3.4:
 Mitigation of Adverse Social Impacts of the Transition to
 Market-Based Democracy
 Risk Assessment Factors
• This office expended $16.2 million, about 41 percent of the Mission’s FY
    2003 program funding.

•   Because Macedonia has a population of only about 2.1 million, activities have
    the potential to significantly improve the country’s economic well-being.
    However, as a consequence, the country’s small size means that EG projects
    face increased risk of disruption by external factors such as actions by the
    Government of Macedonia or disruptions to key businesses.

•   The success of many EG initiatives depend on actions by the Government of
    Macedonia, including the removal of legal, policy, regulatory and procedural
    impediments to rapid, private sector-led growth. Instead of enacting these
    economic reforms, the new government focused on such issues as maintaining
    stability and combating corruption. As a result, the SO 1.3 targets for FY
    2003 were not achieved.

•   To achieve its objectives, EG must coordinate with the Government of
    Macedonia, the European Union, the World Bank, other international donor
    organizations, as well as some private industry representatives that are
    working to reform the Macedonian economy. Conflicts or differences in



                                                                                      4
    opinions among these stakeholders may sometimes impede the Mission’s
    progress to achieve timely results.

•   The current EG Director has provided stable leadership for the past seven
    years. The five additional EG staff members are knowledgeable,
    experienced, and aware of their assigned responsibilities. They manage
    thirteen activities under SO 1.3 and SO 3.4.

•   Personnel have up-to-date job descriptions and receive detailed performance
    appraisals that often specifically mention employees’ internal control
    responsibilities. The Mission upgraded several EG positions through the
    Computer Aided Job Evaluation (CAJE) process, and staff have received
    regular training opportunities to improve their job skills.

•   Program activities are well documented and reflect the active engagement of
    EG personnel with the implementing partners to improve programs and
    achieve the office’s objectives. Personnel meet regularly with implementers,
    review work plans, performance schedules, quarterly and annual reports to
    assess progress.

•   EG has effectively utilized management tools such as portfolio reviews and
    Performance Management Plans. The Mission assessed EG data quality in FY
    2001, and a new data quality assessment is currently underway. Such
    management tools are important control mechanisms that help limit risk.

•   The Mission’s Federal Managers’ Financial Integrity Act (FMFIA) report for
    FY 2003 did not disclose any new or uncorrected material weaknesses related
    to EG programs.


Function Description                                       Risk Exposure
Democracy and Local Governance (DLG) Office:
This office is responsible for SO 2.0: More Legitimate Moderate
Democratic Institutions
 Risk Assessment Factors
• The Mission spent $15.8 million on programs during FY 2003, representing
    40 percent of the USAID/Macedonia’s program funds for that fiscal year.

•   Macedonia’s political challenges, combined with continued ethnic tensions
    and the need to coordinate with other donors, may limit DLG’s program
    success.

•   DLG personnel are actively engaged with the implementing partners to
    improve DLG programs and results. Activity managers and Cognizant
    Technical Officers (CTOs) are well trained. Personnel have up-to-date job
    descriptions, have received required performance appraisals, and have
    received regular training opportunities. These human capital management
    factors help to reduce organizational risk.



                                                                                   5
•   DLG personnel were aware of the potential for fraud, corruption and
    mismanagement. Based on DLG information, the Mission Director identified
    and reported a potential vulnerability to the Regional Inspector General during
    an audit of the DLG program. The identification and mitigation of such risk
    helps ensure that DLG meet their intended results and objectives.

•   A recent RIG/Budapest audit report (Report Number B-165-04-004-P, dated
    March 25, 2004) stated that USAID/Macedonia monitored DLG programs to
    ensure that activities achieved their intended results. However, the Mission’s
    annual performance reporting does not fully reflect USAID’s impact in
    Macedonia because of USAID/Macedonia’s predominant use of public
    perception surveys to measure results of DLG activities. The report
    recommended that the Mission should review its performance indicators and
    select a new mix of indicators that better represents their program’s
    performance.

•   DLG has utilized management tools such as the review of project files and site
    visits to enhance its system for monitoring. Also, DLG personnel meet
    weekly with the Mission Director to discuss activities and progress.

•   A contractor is currently assessing the adequacy of SO 2.0 performance
    indicators and the quality of data collection efforts. This assessment should
    help to enhance the quality and accuracy of reportable data and help DLG
    personnel to meet program objectives.

•   The Mission’s FMFIA Report for FY 2003 did not disclose any new or
    uncorrected material weaknesses related to DLG operations.

 Function Description                                     Risk Exposure
 Social Transition Office (STO): This office is
 responsible for portions of SO 3.4: Mitigation of                 Low
 Adverse Social Impacts of the Transition to Market-Based
 Democracy
 Risk Assessment Factors
• This office expended $3.1 million, about 8 percent of the Mission’s FY 2003
    program funding.

•   Because Macedonia is a small country with only 340 primary and 90
    secondary schools, the programs have the potential to have a significant
    impact on the country’s education system. For example, under USAID’s E-
    schools initiative, USAID and other donors will provide a computer lab to
    every secondary school in Macedonia.

•   To implement programs, STO coordinates with the Government of
    Macedonia’s Ministry of Education, and political concerns can, at times, slow
    progress. The office’s relations with the Ministry have improved
    significantly, and the proposed decentralization of Macedonian education
    should reduce program dependence on the Ministry for access to schools.



                                                                                      6
•   STO programs are coordinating with other donors to maximize results and
    avoid duplication of effort.

•   Two CTOs with extensive education experience—one U.S. Personal Services
    Contractor (USPSC) and one Foreign Service National (FSN)—have been
    with the program since its inception in 2002 and have provided stable
    leadership. As the program expanded, the office added a program assistant
    who will assume increased program management responsibilities. The STO
    Director position is currently vacant, but a U.S. Direct Hire (USDH) is
    scheduled to arrive in August 2004 to fill that position.

•   Personnel have up-to-date job descriptions and have received detailed
    performance appraisals that often specifically mention employees’ internal
    control responsibilities. The Mission upgraded one STO position during the
    CAJE process, and staff has received regular training opportunities to
    improve their job skills.

•   Program activities are well documented and reflect the active engagement of
    STO personnel with the implementing partners to improve programs and
    achieve the office’s objectives.

•   STO has effectively utilized management tools such as portfolio reviews, the
    Performance Management Plan, and annual reports of activities. Portfolio
    reviews include the staff’s assessment of vulnerability issues for each project.
    A contractor is currently assessing the adequacy of the S0 3.4 performance
    indicators and the quality of data collection efforts. Such management tools
    are important control mechanisms that help to limit risk.

•   The Mission’s FMFIA report for FY 2003 did not disclose any new or
    uncorrected material weaknesses related to STO programs.

 Function Description                                         Risk Exposure
 Program Office: This office is responsible for program
 development, program budget management, and public                   Low
 awareness of Mission activities. The office is also
 responsible for facilitating activities under SO 4.2: Cross-
 cutting Initiatives
 Risk Assessment Factors
• The Program Office received $4.4 million, about 11 percent of the Mission’s
    FY 2003 program funding. The office managed $2.9 million in program funds
    to support participant training. The remaining $1.5 million was spent on
    program development and support for the Mission’s cross-cutting initiatives.

•   The office is led by a USDH Program Office Director and a USPSC Program
    Development Advisor, both with extensive USAID experience.

•   The office implements the participant training program using an experienced



                                                                                       7
    training contractor. The office utilizes the Automated Directives System
    (ADS) and Europe and Eurasia Bureau Handbook for program guidance and
    has drafted a separate Mission Order on participant training which
    incorporates Mission-specific objectives. The office plans to submit the draft
    to all Mission offices for coordination before it goes to the Mission Director
    for approval.

•   The office issued an updated Mission Order regarding activity design and
    approval that described relevant documentation expected for each new
    activity. Such documentation includes descriptions of results to be achieved,
    necessary supporting analyses, and a performance management plan with
    specific indicators and targets.

•   The office coordinates the Mission’s annual portfolio reviews, which
    thoroughly and consistently document both program achievements and
    implementation concerns.

•   Program Office personnel serve as representatives on each SO team. The
    representatives advise team members on programmatic decisions and facilitate
    information-sharing between various USAID activities.

•   A Program Development Advisor serves as the Mission’s environmental
    officer to ensure that Initial Environmental Evaluations are completed in
    accordance with ADS 204.5. The evaluations help to assure that USAID
    projects will not harm the environment.

•   The office has been responsible for the completion and submission of the
    annual FMFIA report in conjunction with the other Mission offices.

•   The Mission’s FY 2003 FMFIA report did not disclose any new or
    uncorrected material weaknesses.

 Function Description                                      Risk Exposure
 Executive Office (EXO): This office manages
 administrative functions such as personnel management,             Low
 general services, motor pool, and property management.
 Risk Assessment Factors
• This office provides the basic support for the Mission and had an Operating
    Expense budget for FY 2003 of $1.9 million.

•   Key managers within the Executive Office—including the Executive
    Officer—have training and experience with USAID policies and procedures
    relevant to their positions. The Mission considers that this office has greatly
    reduced its risk level relating to administrative errors by implementing
    computerized internal control systems. The Mission stated that, “This system
    includes ten programs to track and/or to make automated requests for the
    following services: real property, maintenance, financial management,
    simplified acquisitions, human resources, motor-pool, travel, information



                                                                                      8
                  resources, communications & records management and customs & shipping.”

             •    The EXO conducted unannounced cash counts as required by the Foreign
                  Affairs Handbook (FAH), Verification of Funds – General Provisions and
                  documented them. For security reasons, the Mission should consider
                  relocating the cashier’s office to assure that administrative controls are
                  properly applied and funds are safeguarded.

             •    The EXO maintained documentation regarding the office’s administrative
                  control of funds.

             •    Employee files were organized in accordance with applicable guidance.
                  However, sensitive files containing employee social security numbers were
                  not always safeguarded in accordance with ADS 502.5.1c, Access to USAID
                  Records.

             •    The EXO maintained appropriate use of internal controls related to computer
                  access controls and security. A recent USAID scan of the computer system
                  showed that the vulnerability was low. The Mission recently received an
                  award for exceptional performance in information security, risk reduction, and
                  leadership.

             •    The EXO developed a security plan for the general support system and has
                  periodically tested it for general support and major applications.

             •    The EXO maintained adequate documentation for its six vehicles that included
                  vehicle mileage, fuel consumption, and maintenance records. Although the
                  office properly maintained daily vehicle use records, the records for one
                  vehicle were not always documented as required by the Foreign Affairs
                  Manual (6 FAM 228.6, Operating Motor Vehicles).

             •    The Mission’s FY 2003 FMFIA report did not disclose any new or
                  uncorrected material weaknesses related to EXO operations.




Conclusion   We examined the risks associated with the various aspects of the
             USAID/Macedonia Mission. The table below summarizes our
             conclusions.

                                                                       Risk Exposure
                 USAID/Macedonia Functions
                                                              High       Moderate Low
                 Economic Growth Office                                      9
                 Democracy and Local Governance Office                       9
                 Social Transition Office                                            9
                 Program Office                                                      9
                 Executive Office                                                    9




                                                                                                   9
                The Mission considers that the level of risk relating to administrative controls was
                reduced by the implementation of an on-line computer program structured by the
                EXO’s office. This system of internal controls creates checks and balances which
                may provide a cost saving to the U.S. government.

                Based on our observations, interviews and limited review of documentation, we are
                offering the following suggestions for Mission management’s consideration. These
                suggestions are not formal audit recommendations and do not necessarily represent
                deficiencies, but involve possible improvements or enhancements to activities which
                could already be in progress. Specifically, the Mission should:

                   •   Consistently document records for vehicle use in accordance with 6 FAM
                       228.6, Operating Motor Vehicles.

                   •   Verify that administrative procedures for the establishment of the current
                       alternate cashier are consistent with USAID and federal requirements.

                   •   Assure that the location of the cashier’s office and the safeguarding of funds
                       are in accordance with Agency requirements and 4 FAH-3.




Evaluation of   USAID/Macedonia Mission officials agreed with the conclusions we reached during
Management      the risk assessment and concurred with our suggestions. As noted in their comments,
Comments        they have already begun to implement the suggestions included in the risk assessment.

                The Mission Director also provided documentation to support actions taken, including
                an updated Mission Order on cash procurements and the purchase of three
                combination-lock cash boxes. He also certified that everyone is signing the vehicle
                logs.




                                                                                                  10
                                                                                        Appendix I

Scope and
              Scope
Methodology
              The Regional Inspector General/Budapest (RIG/Budapest) conducted this risk
              assessment to gain an understanding of the programs and activities of
              USAID/Macedonia. This was not an audit and does not contain any formal
              recommendations. The risk assessment was conducted at USAID/Macedonia in
              Skopje, Macedonia, during the period June 7-24, 2004. The purpose of this
              assessment was to identify the more significant areas of vulnerability within
              USAID/Macedonia’s administrative and program operations to assist RIG/Budapest
              in planning program audits for fiscal year 2006 and beyond. The risk assessment
              focused primarily on FY 2003 data and, as necessary, data from previous years.

              Methodology

              To perform this risk assessment, we interviewed USAID/Macedonia personnel and
              examined documentation to obtain an understanding of the Mission’s objectives,
              programs and activities. We judged risk exposure by considering the likelihood of:
              significant abuse, illegal acts and/or misuse of resources, failure to achieve program
              objectives, noncompliance with laws, regulations and internal policies. We assessed
              overall risk exposure as low, moderate, or high. A higher risk exposure simply
              indicated that the particular function is more vulnerable to not achieving its program
              objectives or to experiencing irregularities.

              Our overall risk assessments did not make definitive determinations of the
              effectiveness of internal controls. As a part of the scope of our review, we (a)
              obtained an understanding of the internal controls related to the programs and
              operations selected, and (b) assessed what was already known about the internal
              controls. Also, it should be noted, we did not (a) assess the adequacy of the internal
              control design, (b) determine if controls were properly implemented, or (c) determine
              if transactions were properly documented.

              Our risk assessment of USAID/Macedonia considered the following limitations:

                 •    Higher risk exposure assessments are not definitive indicators that program
                      objectives were not being achieved or that irregularities were occurring. A
                      higher risk exposure simply implies that the particular function is more
                      vulnerable to the occurrence of such events.

                 •    Comparison of risk exposure assessments between organizational units and
                      implementing partners is of limited usefulness because the assessments
                      consider both internal and external factors, some being outside the control of
                      management.

                 •    Risk exposure assessments in isolation are not an indicator of management’s
                      capabilities due to the fact that the assessments consider both internal and
                      external factors, some being outside the control of management.




                                                                                                 11
We determined a risk level of low, moderate, or high for the Mission’s various
programs and offices. The final assignment of the risk level to an office was
judgmentally determined considering the external factors which could have had an
effect on the programs in some cases. We also assessed how sufficiently we believed
the Mission had met the prescribed regulations, operating guidelines and internal
control procedures in its program, financial, accounting and administrative
management.




                                                                                12
                                                                                            Appendix II

Management
Comments




                                        USAID MACEDONIA
                                         MEMORANDUM

                                                                                        August 31, 2004


         FROM:             Dick Goldman, Mission Director /s/

         TO:               Regional Inspector General/Budapest, Nancy J Lawton

         SUBJECT: Draft Report on the Risk Assessment of USAID/Macedonia
                  (Report No. B-165-04-XXX-S)


         Thank you for the opportunity to provide comments on the USAID/Macedonia Risk
         Assessment Report. We enjoyed the collaboration with your staff and have already begun to
         implement the suggestions they made on how we can improve our performance to reduce risk
         and ensure we are complying to the fullest with Agency policies and procedures.

         Suggested edits for RIG consideration:

         p. 2 bullet 3, insert “a” between to and market-based
         p. 6 bullet 2, the last sentence, “….will provide a computer lab to every secondary school in
         Macedonia.
         p. 6 bullet 4, “STO programs are coordinating with other donors….”
         p. 8 bullet 5, delete “generally”

         Factual errors:

         p. 8, bullet 2, last sentence should note ten programs not six. Therefore the sentence should
         read, “This system includes ten programs to track and/or to make automated requests for the
         following services: real property, maintenance, financial management, simplified
         acquisitions, human resources, motor-pool, travel, information resources, communications &
         records management and customs & shipping.”

         p. 9, third full bullet, the last sentence should be replaced with, “… the records were not



                                                                                                         13
always documented for one vehicle of the motor pool as required by…..”

We note the following actions taken in response to your suggestions:

All vehicles are now fully in compliance with 6 FAM 228.6, Operating Motor Vehicles.

The sub-cashier is booked to take the one week Basic Overseas Cashier course in FY 05.
We have issued a revised Mission Order MO533-1: Cash Procurement of EXP, NXP and it
includes sections that address our policies and procedures for safeguarding petty cash funds
and the formal designation of the sub-cashier and alternate sub-cashier.

In accordance with the 4 FAH -3 H-317 we have ordered manipulation-resistant cash boxes
for the sub-cashier and for the alternate sub-cashier.




                                                                                               14
